        .--:;*
         . ..
        -*,,-.*-:..- .
          v..

         *.%.            .
Date:'.             ' i l p r i l 3,    1990

To:      Dr.                 James Z w o l e n i k ,   Office of   Uversiqht

From:
                                                                          \



Subject:                      016-90-3114         (Fargery)    (MqO-06)

a      n      d   I agree          w i t h your       assessment t h a t            t h i s ca5.r.
ct-.imin a l b e h a v i o r and s h u u l d b e hsndlecl b y I n v e s t i g a t . i one,.
                                                                                                     Y   1-1    ,",y
                                                                                                               1: a11
                                                                                                                       -
 k e e p i n g a1 1    o r i g i n a l d o c ~ l m e n t sand r e t u r - n i i l g
o r i g i n a l s w i l l be i n I n ' / e s t i j a t i o n s case f i l e
Thank y o u f o r y o u r a s s i s t a n c e i n t h i s m a t t e r .
